     Department of Homeland Security

     ��������������������������



U.S. Immigration and Customs Enforcement’s Worksite 

   Enforcement Administrative Inspection Process 





OIG-14-33                              February 2014

                       OFFICE OF INSPECTOR GENERAL 

                             Department of Homeland Security 

                              Washington, DC 20528 / www.oig.dhs.gov


                                       FEB 11 2014

MEMORANDUM FOR:             James Dinkins
                            Executive Associate Director
                            Homeland Security Investigations
                            U.S. Immigration and Customs Enforcement

FROM:                       Mark Bell
                            Acting Assistant Inspector General for Audits

SUBJECT:                    U.S. Immigration and Customs Enforcement’s Worksite
                            Enforcement Administrative Inspection Process

Attached for your information is our final report, U.S. Immigration and Customs
Enforcement’s Worksite Enforcement Administrative Inspection Process. We incorporated
the formal comments from U.S. Immigration and Customs Enforcement’s (ICE) Office of
Management and Administration in the final report.

The report contains three recommendations aimed at improving ICE’s implementation of its
worksite enforcement strategy through the administrative inspection process. Your office
concurred with two recommendations. Based on information provided in your response to
the draft report, we consider recommendation 1 open and unresolved. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of
Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion date
for this recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of this recommendation.
Until your response is received and evaluated, this recommendation is considered open and
unresolved.

Recommendations 2 and 3 are open and resolved. Once your office has fully implemented
the open recommendations, please submit a formal closeout request to us within 30 days
so that we may close the recommendations. The request should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.




                                                

                           OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 


   Please email a signed PDF copy of all responses and closeout requests to
   OIGAuditsFollowup@oig.dhs.gov.

   Consistent with our responsibility under the Inspector General Act, we will provide copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
   Assistant Inspector General for Audits, at (202) 254-4100.

   Attachment




   �

                                                �


www.oig.dhs.gov                                2                                       OIG-14-33

                                      OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security
                                       �
   Table�of�Contents��
   �
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 6


              Worksite Enforcement Administrative Inspections ................................................ 6

              Negotiation and Reduction of Fines ....................................................................... 9

              Administrative Inspection File Documentation .................................................... 10 

              Reporting on Administrative Inspections and Fines ............................................. 11 

              Recommendations ............................................................................................... 12 

              Management Comments and OIG Analysis ......................................................... 13 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ........................................... 16 

              Appendix B:           Management Comments to the Draft Report .............................. 18 

              Appendix C:           Form I-9 Employment Eligibility Verification ................................ 22 

              Appendix D:           Major Contributors to This Report ............................................... 24 

              Appendix E:           Report Distribution ....................................................................... 25 

   �
   Abbreviations�
              BFC                   Burlington Finance Center
              DHS                   Department of Homeland Security
              FFMS                  Federal Financial Management System
              FY                    fiscal year
              HSI                   Homeland Security Investigations
              ICE                   U.S. Immigration and Customs Enforcement
              IRCA                  Immigration Reform and Control Act of 1986
              NIF                   Notice of Intent to Fine
              OIG                   Office of Inspector General
              WSE                   worksite enforcement




www.oig.dhs.gov�                                                                                                                 OIG-14-33
�
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                            �
   Executive�Summary

   �
   U.S. Immigration and Customs Enforcement (ICE) is responsible for an effective worksite
   enforcement strategy to protect critical infrastructure, target employers who violate
   employment laws, and protect employment opportunities for the Nation’s lawful
   workforce. In 2009, ICE revised its worksite enforcement strategy to prioritize
   identifying employers who knowingly hire illegal workers, arresting and removing illegal
   workers, and using all available civil and administrative tools to penalize and deter illegal
   employment. From fiscal years 2009 through 2012, Congress allocated about $531
   million to fund and implement ICE’s worksite enforcement strategy. Over that same
   period, ICE’s Homeland Security Investigations directorate conducted about 9,140
   administrative inspections and issued about $31.2 million in civil fines to employers. The
   audit objective was to determine whether ICE is meeting the requirements of the
   Immigration Reform and Control Act of 1986 through the administrative inspection
   process for its worksite enforcement strategy.

   Generally, ICE’s worksite enforcement administrative inspection process met the
   requirements of the Immigration Reform and Control Act of 1986. However, ICE’s
   Homeland Security Investigations directorate has not adequately monitored or
   evaluated the performance or outcomes of implementing its administrative inspection
   process through the worksite enforcement strategy. Specifically, ICE’s Homeland
   Security Investigations’ headquarters did not adequately oversee the field offices to
   ensure that they were consistent in issuing warnings and fines, and some field offices
   issued significantly more warnings than fines. The directorate also negotiated fines with
   employers, in some cases substantially reducing the amounts. Homeland Security
   Investigations’ inconsistent implementation of the administrative inspection process,
   plus the reduction of fines, may have hindered its mission to prevent or deter employers
   from violating immigration laws. The directorate has not analyzed the effect of these
   differences in implementation or sufficiently determined whether implementation has
   improved compliance. In addition, field offices did not always document their actions
   adequately and did not maintain accurate and up-to-date administrative inspection
   data, making it more difficult to verify employers’ compliance. As a result, ICE’s
   Homeland Security Investigations directorate may have difficulty fully analyzing the
   impact of its administrative inspection process through the worksite enforcement
   strategy. Because it is able to inspect only a small percentage of employers, the
   Homeland Security Investigations directorate should maximize the value of each
   administrative inspection by ensuring that it conducts the inspection process effectively.

   We made three recommendations to improve ICE’s implementation of its worksite
   enforcement strategy through the administrative inspection process. ICE did not concur
   with recommendation 1 and concurred with recommendations 2 and 3.



www.oig.dhs.gov                                 1                                         OIG-14-33

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                              �
   Background�
   According to the Department of Homeland Security (DHS), in January 2011, there were
   an estimated 11.5 million unauthorized immigrants in the United States. According to
   the Pew Research Center, unauthorized workers made up an estimated 5.2 percent, or 8
   million, of the United States workforce in March 2010.1 Unauthorized immigrants are
   foreign-born individuals who are neither citizens nor legal residents of the United
   States. Most unauthorized immigrants either enter the United States illegally or are
   admitted temporarily and stay past the date that they are required to leave. To gain
   employment, unauthorized workers may present fraudulent identity-related documents
   or use another person’s identity. ICE enforces immigration laws related to employment
   of unauthorized workers, as well as laws dealing with human trafficking, alien
   smuggling, and document fraud. ICE also imposes criminal and civil sanctions on
   employers who violate immigration laws. Figure 1 shows the number of unauthorized
   immigrants estimated to be in the United States in 2000 and from 2005 through 2011.�
   �
   Figure�1.�Unauthorized�Immigrant�Population�in�the�United�States:�2000�and��
   2005–2011




                                                                                                    �



   1
    The Pew Research Center conducts public opinion polling, demographic research, media content
   analysis, and other empirical social science research.



www.oig.dhs.gov                                     2                                              OIG-14-33

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                            �
   Congress passed the Immigration Reform and Control Act of 1986 (IRCA), which
   prohibits employers from employing individuals whom they know are not authorized to
   work in the United States. Under IRCA, it is illegal for an employer to knowingly hire and
   continue to employ unauthorized workers. In addition, employers are required to verify
   the identity of newly hired employees and their eligibility to work in the United States.
   The act also established criminal and civil sanctions and fines for employers who do not
   comply with the law.

   Since November 1986, employers have been required to obtain a completed U.S.
   Citizenship and Immigration Services Form I-9, Employment Eligibility Verification, for
   each newly hired employee to verify identity and employment authorization
   documents, such as a United States passport or driver’s license and an employment
   authorization card. Appendix C contains a sample I-9 form and a list of acceptable
   documents for establishing personal identity and employment authorization.

   ICE’s primary mission is to promote homeland security and public safety through the
   criminal and civil enforcement of Federal laws governing border control, customs, trade,
   and immigration. The Component had a fiscal year (FY) 2012 budget of approximately
   $6 billion, primarily devoted to two operational directorates: Homeland Security
   Investigations (HSI) and Enforcement and Removal Operations. HSI is responsible for
   investigating domestic and international activities related to the illegal movement of
   people and enforcing United States customs and immigration laws. To reduce illegal
   employment and protect opportunities for the lawful workforce, HSI enforces IRCA
   requirements through its worksite enforcement (WSE) strategy. Figure 2 shows that
   HSI’s Domestic Investigations received about $531 million in funding from FYs 2009
   through 2012 to implement WSE activities.

   Figure�2.�Funding�of�HSI’s�Domestic�Investigations,�FYs�2009�2012

                       Year�          Amount*�
                       2009            $126.5
                       2010            $134.7
                       2011            $134.7
                       2012            $134.6
                       Total�          $530.5�
                  Source: Congressional reports. 

                  *Amounts in millions. 


   On April 30, 2009, HSI announced a revised WSE strategy focusing on employers who
   knowingly hire unauthorized workers, rather than on large-scale enforcement actions
   that target illegal workers almost exclusively. Of the more than 6,000 WSE-related



www.oig.dhs.gov                                      3                                  OIG-14-33

                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                              �
   arrests made in 2008 under the previous strategy, only 135 were arrests of employers.
   Under the current WSE strategy, ICE continues to focus on criminal prosecution, but also
   makes efforts to use all available civil and administrative tools, such as inspections,
   fines, and outreach to penalize and deter illegal employment. Under the previous
   strategy, from FYs 2003 through 2008, as a result of its administrative inspections, ICE
   imposed fines totaling $1.5 million. Under the current strategy, from FYs 2009 through
   2012, ICE imposed fines totaling $31.2 million.
   �
   In 2010, there were 5.7 million companies with employees in the United States.2 HSI
   does not conduct random administrative inspections. Rather, its priority is to protect
   the Nation’s critical infrastructures and key resources by identifying and removing
   unauthorized workers who have access to sensitive facilities and information. There are
   18 principal critical infrastructure sectors: Agriculture and Food; Banking and Finance;
   Chemical; Commercial Facilities; Communications; Critical Manufacturing; Dams;
   Defense Industrial Base; Emergency Services; Energy; Government Facilities; Healthcare
   and Public Health; Information Technology; National Monuments and Icons; Nuclear
   Reactors, Materials and Waste; Postal and Shipping; Transportation Systems; and
   Water.

   HSI's WSE strategy focuses on enforcement, compliance, and outreach to ensure that
   employers comply with IRCA. Enforcement includes criminal prosecution of violating
   employers, and compliance includes administrative inspections that may result in civil
   fines. HSI also conducts outreach through the ICE Mutual Agreement between
   Government and Employers program. This audit focused on the compliance aspect of
   the WSE strategy.

   Under the WSE strategy, HSI meets the requirements of IRCA by conducting
   administrative inspections of employees’ I-9 forms. Field offices initiate administrative
   inspections when they receive a tip line complaint or through an HSI headquarters
   initiative. The inspection process begins when HSI serves a Notice of Inspection
   compelling an employer to produce I-9 forms for all employees. HSI personnel then
   inspect the I-9 forms and classify violations as either technical or substantive, based on
   the seriousness of the errors or omissions. Technical violations include failing to ensure
   that an individual has provided all personal information on the I-9 form, such as a
   maiden name, address, and birth date. Substantive violations include one or more
   instances of an employee failing to present an I-9 form, and an employer failing to
   review and verify required documentation. In addition to reviewing paperwork for

   2
     The U.S. Census Bureau provides annual data on employers, the latest of which are from 2010, through
   its Statistics of U.S. Businesses and Business Dynamics Statistics. The Bureau of Labor Statistics at the U.S.
   Department of Labor provides quarterly data on gross job gains and losses through its Business
   Employment Dynamics.



www.oig.dhs.gov                                          4                                                  OIG-14-33

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                            �
   violations, if HSI personnel determine that an employer’s workforce includes
   unauthorized workers, they must notify the employer and take the necessary legal or
   administrative actions, such as issuing a Notice of Suspect Document.

   Administrative inspections result in one of the following dispositions:

                  •	 Compliance: No technical or substantive violations in paperwork and no
                     unauthorized workers are identified, or technical paperwork violations
                     are corrected in a timely manner (adjusted compliance).

                  •	 Warning: Violations are identified, but there is the expectation of future
                     compliance by the employer.

                  •	 Fine: The employer has not acted in good faith and has substantive
                     paperwork violations (usually, more than 50 percent of I-9 forms include
                     substantive errors), which warrant a fine.

   HSI has a process for imposing civil fines on employers who violate IRCA. ICE’s Office of
   Chief Counsel at each field office may authorize a reduction of a Notice of Intent to Fine
   (NIF) by 10 percent without concurrence from the agent in charge of the field office
   (Special Agent-in-Charge). Employers may negotiate a fine reduction greater than 10
   percent with concurrence from the Office of Chief Counsel and the Special Agent-in-
   Charge. Employers may also request an appeal hearing with the Administrative Law
   Judge at the United States Department of Justice. The field office or Administrative Law
   Judge issues a final order to the employer, and the fine collection process begins. HSI
   personnel send a final order with the assessed fine amount to the Burlington Finance
   Center (BFC), which tracks and collects the fines. Employers who experience financial
   hardship may seek to further negotiate the payment terms or final order amount.

   HSI performed approximately 9,140 administrative inspections from FYs 2009 through
   2012 and issued about $31.2 million in fines to employers who violated immigration
   laws.

   �
   �                                �




www.oig.dhs.gov                                    5	                                      OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                            �
   Results�of�Audit�
   Generally, ICE’s WSE administrative inspection process met the requirements of the
   Immigration Reform and Control Act of 1986. However, HSI has not adequately
   monitored or evaluated the performance or outcomes of implementing its
   administrative inspection process. Specifically, HSI headquarters did not adequately
   oversee the field offices to ensure that they were consistent in issuing warnings and
   fines, and some field offices issued significantly more warnings than fines. HSI also
   negotiated fines with employers, in some cases substantially reducing the amounts.
   HSI’s inconsistent implementation of the administrative inspection process, plus the
   reduction of fines, may have hindered its mission to prevent or deter employers from
   violating immigration laws. HSI has not analyzed the effect of these differences in
   implementation or sufficiently determined whether warnings and fines have improved
   compliance. In addition, field offices did not always document their actions adequately
   and did not maintain accurate and up-to-date administrative inspection data, making it
   more difficult to verify employers’ compliance. As a result, HSI may have difficulty fully
   analyzing the effect of its administrative inspection process through the WSE strategy.
   Because it is able to inspect only a small percentage of employers, HSI should maximize
   the value of each administrative inspection by ensuring that it conducts the inspection
   process effectively.

           Worksite�Enforcement�Administrative�Inspections��
           �
           In analyzing the results of 692 administrative inspections conducted by five field
           offices from January 2009 to August 2012, we determined that some offices
           issued more warnings than other offices. The analysis showed that about 31
           percent of Denver and Chicago field offices’ inspections resulted in fines and
           approximately the same amount resulted in warnings. In the same period, about
           7 percent of the inspections from Los Angeles, Miami, and New Orleans field
           offices resulted in fines. In contrast, these three field offices issued warnings for
           55 percent, 41 percent, and 78 percent of inspections, respectively. Figure 3
           shows the results of inspections—compliance, warnings, and fines—from these
           five field offices.

   �                              �




www.oig.dhs.gov                                  6                                         OIG-14-33

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                             �
           Figure�3.�Results�of�Administrative�Inspections�at�Five�Field�Offices�–��
           January�2009�to�August�2012��
           �
           �                Percentage�of�Case�Dispositions�by�Field�Office
           � 80%
           � 70%
           � 60%
           �
             50%
           �                                                                   Compliance
             40%
           �                                                                   Warning
           � 30%
                                                                               Fine
           � 20%
           � 10%
           � 0%
           �         Chicago    Denver Los Angeles    Miami New Orleans
           �
           Source: DHS Office of Inspector General, based on WSE Consolidated Monthly I-9 Inspection
           Tracking Sheets.
           �
           HSI�Oversight�and�Evaluation�of�Administrative�Inspections�

           HSI headquarters did not provide sufficient oversight to ensure that its field
           offices conducted WSE administrative inspections consistently, and its
           performance measures were not adequate to evaluate the results of inspections.
           Two field offices developed and implemented internal practices that are not
           included in ICE guidance, which may have caused the offices to issue more
           warnings than fines. Yet, HSI did not monitor the field offices’ practices in
           carrying out administrative inspections to make certain that personnel were
           complying with ICE guidance when making determinations on warnings and
           fines. Without adequate oversight and monitoring of the inspection process and
           proper evaluation of its outcomes, it may be difficult for HSI to determine how
           effective this portion of the WSE strategy is in preventing and deterring
           employers from violating immigration laws.

           HSI headquarters did not provide sufficient oversight to ensure its field offices
           complied with ICE guidance when issuing warnings and fines. In 2008, ICE
           headquarters issued a Guide to Administrative Form I-9 Inspections and Civil
           Monetary Penalties. The guide included circumstances in which HSI personnel
           should issue warnings and those in which they should issue NIFs. However, two
           of the field offices that we reviewed established internal practices to make these
           determinations. In addition to potentially increasing the number of warnings,



www.oig.dhs.gov                                      7                                             OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                            �
           some field offices may have issued warnings when, according to ICE guidance, it
           may have been more appropriate to issue fines.

           For example, the Miami field office created an internal practice to determine
           whether to issue a warning, which may have resulted in it issuing more warnings
           than fines. From FY 2009 through August 2012, the field office conducted 194
           administrative inspections. Seven percent of the inspections resulted in fines; 41
           percent resulted in warnings. Miami personnel said that when deciding whether
           to issue a warning or a fine, they considered the viability of the business and the
           character of the owners. If the potential fine was substantial and threatened the
           employer’s ability to remain in business, they would consider issuing a warning
           rather than a fine.

           The Los Angeles field office also established an internal procedure to determine
           whether to issue a warning or fine. From FY 2009 through August 2012, this field
           office conducted 147 administrative inspections. About 7 percent resulted in
           fines, and about 55 percent resulted in warnings. In some cases, personnel
           issued a warning when the potential fine amount was less than $10,000, unless
           they identified egregious violations or repeat offenses during a re-inspection.
           Specifically, 2 of the 29 administrative inspections files we reviewed showed that
           HSI personnel issued warning notices to employers because the potential fine
           would have been less than $10,000. ICE guidance does not include a dollar
           threshold for issuing a warning rather than a fine. Furthermore, at other field
           offices, we found instances of employers receiving fines rather than warnings for
           potential fines of $10,000 or less.

           According to the ICE guide, “Generally, when more than 50% of the Forms I-9
           inspected exhibit substantive errors without regard to whether or not those
           errors resulted in the hire of unauthorized aliens, the case agent or auditor
           should seek a NIF.” However, at the Los Angeles field office, we identified a case
           that resulted in a warning being issued even though the I-9 form error rate was
           80 percent.

           HSI’s performance measures were not adequate to evaluate the results of WSE
           administrative inspections. In April 2013, the Department issued its FY 2012–
           2014 Annual Performance Report, which includes its performance measures and
           applicable results. The report included three measures pertaining to the WSE
           strategy. However, HSI retired two measures and replaced them with one, which
           alone is not sufficient to monitor the effectiveness of the strategy.

           HSI headquarters did not effectively oversee field office personnel to ensure that



www.oig.dhs.gov                                 8                                        OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                            �
           they issued administrative fines and warnings uniformly, nor did it assess the
           results of administrative inspections to determine the effect of its WSE strategy.
           Thus, ICE may have been hampered in its ability to prevent immigration law
           violations, meet the requirements of IRCA, and protect the rights of legal
           workers.

           Negotiation�and�Reduction�of�Fines��
           �
           Although NIFs may lead to a final order for a civil fine, fine amounts can be
           negotiated and substantially reduced. When a field office determines the
           number of violations based on the results of an administrative inspection, it
           calculates the fine and issues an NIF. Title 8 of the Code of Federal Regulations
           Section 274a.10 established a fine range from $110 to $1,100 per violation for
           employers who fail to complete, retain, or present I-9 forms for inspection. The
           Office of Chief Counsel at a field office may authorize a reduction of the NIF by
           10 percent; reductions of more than 10 percent may also be negotiated with the
           concurrence of the field office’s Special Agent-in-Charge. Employers who
           experience financial hardship may seek to further negotiate the payment terms
           or final order amount.

           HSI's negotiation of fines with employers led, in some cases, to substantial
           reductions in the fine amount. Although negotiating and reducing fine amounts
           is legal, the knowledge that fines can be significantly reduced may diminish the
           effectiveness of fines as a deterrent to hiring unauthorized workers. However,
           HSI has not analyzed how reductions in fines affect either employers’ compliance
           or the rates of recidivism.

           As shown in figure 4, from FY 2009 through 2012, negotiations and settlements
           with employers reduced NIFs from $52.7 million to $31.2 million in final orders,
           an average reduction of 40 percent. In the same period, 793 of the 1,174 final
           orders issued, about 68 percent, were reduced. Of the 793 reduced final orders,
           about 28 percent were reduced by more than half. For example, one employer’s
           fine was reduced from $4.87 million to $1.05 million—a 78 percent reduction.
           Another employer’s fine was reduced from $4.04 million to $1.25 million—a 69
           percent reduction.

   �                             �




www.oig.dhs.gov                                 9                                        OIG-14-33

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                           �
           Figure�4.�Worksite�Enforcement�Fines�Submitted�to�the�Burlington�Finance�
           Center,�FYs�2009–2012�
  �
                                                                    Reduction in Fine
                        Final
             Fiscal                  Initial NIF    Final Order     From NIF to Final
                       Orders
             Year                    Amount*         Amount*              Order
                      Received
                                                                   Amount
                                                                                  %
                                                                  in Millions
             2009         52           $1.59           $1.03         $0.56      35%
             2010        237          $12.98           $6.96         $6.02      46%
             2011        385          $16.30          $10.46         $5.84      36%
             2012        500          $21.85          $12.72         $9.13      42%
             Total�     1,174�        $52.72�         $31.17�       $21.55�       --�
           Source: BFC, as of September 28, 2012.
           *Amounts in millions.
           �
           Administrative�Inspection�File�Documentation�

           HSI field office personnel did not always maintain adequate file documentation
           to support administrative inspection results. Therefore, HSI headquarters did not
           always have adequate or reliable documentation on the status of administrative
           inspections and re-inspections, making it more difficult to verify employers’
           compliance. We identified incomplete and missing information on notices
           provided to employers, inconsistent levels of documentation among field offices,
           and data on the status of inspections that was not updated.

           A review of 149 administrative inspection files from the five field offices showed
           that some key documentation in the files was incomplete or missing. For
           example, at the Los Angeles field office, 12 (41 percent) of the 29 files did not
           contain evidence that HSI personnel checked records to verify employment
           eligibility. Also, according to ICE guidance, warning notices must include a date
           for re-inspection of the employer. However, 48 (74 percent) of the 65 warning
           notice files we reviewed at the five field offices did not contain re-inspection
           dates. Field offices are required to re-inspect employers to ensure they comply
           with immigration laws after receiving notice that they were in violation. Because
           re-inspection dates were not documented, we could not determine, and HSI
           headquarters cannot be assured, that the field offices met this requirement.

           HSI headquarters allowed the field offices a high degree of autonomy, which led
           to differing documentation of processes for administrative inspections within the
           same geographic area. In addition to incomplete or missing inspection file



www.oig.dhs.gov                                     10                                  OIG-14-33

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                           �
           documentation, there were also inconsistencies in the adequacy of
           documentation between principal and subordinate field offices in the same
           geographic region. At the five regional sites, there was a greater occurrence of
           missing documentation in inspection files at the subordinate field offices.

           Reporting�on�Administrative�Inspections�and�Fines�
           �
           The information systems that HSI uses to track administrative inspections and
           fines were not accurate or up to date. HSI personnel use TECS to track
           administrative inspections, and BFC personnel use the Federal Financial
           Management System (FFMS) to maintain fine information.3 The systems were
           not accurate or current because HSI and BFC did not record the information in a
           timely and consistent manner. In addition, field offices did not comply with HSI
           headquarters instructions for updating WSE Consolidated Monthly I-9 Inspection
           Tracking Sheets, known as WSE monthly reports. HSI uses the WSE monthly
           reports to capture field offices’ information on administrative inspections. As a
           result, HSI may have reported and disseminated inaccurate data on its
           administrative inspections, and it did not have reliable data that could be used to
           help assess the impact of the strategy.
           �
           DHS FY 2012–2014 Annual Performance Report includes the dollar value of fines
           assessed for employers with I-9 form violations, but ICE did not accurately report
           this measure. The report indicated that HSI assessed approximately $29.8 million
           in fines for FY 2012. However, BFC-generated fine data showed that HSI actually
           assessed about $12.7 million in administrative fines and thus overstated the
           reported measure by approximately $17.1 million.

           Although the field offices recorded information on the status and results of
           administrative inspections in TECS, the offices did not update the system
           regularly because ICE guidance allowed them discretion in the timeframes for
           updating. For this reason, when extracting data, HSI could not always be assured
           that the field offices’ information on the status of inspections was correct and up
           to date.

           BFC recorded information on collection of fines in FFMS; however, information
           on renegotiated fines was not always accurate. For example, a BFC report on fine
           collection from FYs 2011 through 2012 is overstated because the original fine



   3
     TECS, formerly known as the Treasury Enforcement Communications System, is now referred to only by
   its acronym.



www.oig.dhs.gov                                     11                                            OIG-14-33

                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                            �
           amounts were not adjusted in FFMS to reflect renegotiated fines. Figure 5 shows
           NIF and final order amounts.

           Figure�5.�Worksite�Enforcement�Fines�Submitted�to�the�Burlington�Finance�
           Center,�FYs�2011–2012

                                                    Final
                                                              Initial NIF   Final Order
                           Fiscal Year             Orders
                                                              Amount*        Amount*
                                                  Received

                            2011                       385     $16.30        $10.46
                       2011 Adjustment                 (13)    ($0.36)       ($0.26)
                            2012                       337     $15.99         $8.47
                       2012 Adjustment                 (13)    ($1.25)       ($0.36)
                            Total�                     696�    $30.68�       $18.31�
                  Source: BFC, as of June 29, 2012.

                  *Amounts in millions. 


           The field offices did not always provide consistent and updated information in
           WSE monthly reports submitted to HSI headquarters. WSE monthly reports
           capture statistics on administrative inspections that TECS cannot generate. HSI
           headquarters provides instructions to the field offices on updating the WSE
           monthly reports. We determined that some of the field offices did not follow the
           instructions, which led to inaccurate reporting. HSI headquarters did not have a
           process to ensure that the field offices were accurately compiling the
           information. Furthermore, not all field offices included the same information in
           their reports. According to an HSI headquarters employee, there was no
           systematic reconciliation of data received from the field offices. Reconciling the
           data would allow HSI and BFC to identify inaccuracies and make timely
           corrections, as well as identify discrepancies in their systems and reports.

           Recommendations��

           We recommend that the U.S. Immigration and Customs Enforcement Executive
           Associate Director for Homeland Security Investigations:

           Recommendation�#1:

           Enforce its oversight procedures to ensure consistent application of the worksite
           enforcement strategy administrative inspection process nationwide.

           �


www.oig.dhs.gov                                          12                               OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                        �
           Recommendation�#2:�

           Develop a process to evaluate the effectiveness of the administrative inspection
           process and modify the process based on the evaluation.

           Recommendation�#3:

           Direct Homeland Security Investigations field offices to provide consistent,
           accurate, and timely reporting and reconciliation of information on worksite
           enforcement strategy administrative inspections.
           �
           Management�Comments�and�OIG�Analysis�

           We obtained and reviewed written comments on the draft report from ICE.
           Where appropriate, we made changes to the report. ICE did not concur with
           recommendation 1 and concurred with recommendations 2 and 3. Appendix B
           includes a copy of the management comments in their entirety. Our analysis of
           ICE’s response to the draft report follows.

           Management�Response�to�Recommendation�#1:�ICE did not concur with this
           recommendation. According to ICE, variances in the percentages of
           investigations that result in a particular enforcement outcome, such as the
           issuance of a warning letter as opposed to a NIF, among field offices are the
           result of local mission priorities, resources, and local socio-economic
           characteristics rather than a lack of consistent processes or oversight. The
           number and results of inspections fluctuate among field offices; however, the
           resources necessary to issue and support a fine remain constant. This accounts
           for the variance among field offices in the percentages of cases that result in
           fines, warnings, and compliance.

           ICE HSI Headquarters WSE Unit provides oversight to ensure consistent
           application of this process by the field offices through the following: a fiscal year
           inspection implementation plan; uniform notice template letters; oversight of
           the de-confliction process; a central repository of policy, resources, and guidance
           to be utilized by the field offices; periodic refresher webinars to reiterate training
           points and policies; conference calls with first-line supervisors to discuss current
           issues; and real-time responses to questions from the field offices. In addition,
           the WSE Unit monitors and tracks case dispositions, ensuring cases are
           submitted to the Department of Labor for de-confliction and ensuring that the
           Notices of Inspections are served and accurately captured in TECS-II.




www.oig.dhs.gov                                 13                                         OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                             �
           OIG�Analysis:�Although ICE HSI Headquarters WSE Unit developed procedures,
           we maintain that they did not effectively oversee field office personnel to ensure
           that the ICE guidance and procedures were uniformly implemented across their
           field offices. OIG understands that ICE field offices vary in local mission priorities
           and resources; therefore, we are not calling that to question. However, we
           believe that allowing ICE field offices to develop and implement internal
           practices that are outside of established ICE guidance could cause variances in
           administrative inspection outcomes. Specifically, we identified two ICE field
           offices that make determinations based on the viability and characteristics of the
           employer’s business and another field office that established a fine amount
           threshold. These types of practices are not taken into consideration at other field
           offices where we conducted site visits. ICE guidance does not include a dollar
           amount threshold for issuing a NIF to employers. Because some field offices have
           internal practices, the outcome of some administrative inspections that resulted
           in warnings could have potentially resulted in fines. Therefore, ICE must consider
           the fairness of issuing warning notices and fines to employers across the country.

           We believe ICE must enforce its oversight procedures to ensure that field offices
           are consistent in applying the WSE administrative inspection process nationwide.
           This recommendation will remain unresolved and open pending resolution that
           ICE Headquarters WSE Unit is enforcing its oversight procedures to resolve the
           internal practices among field offices.

           Management�Response�to�Recommendation�#2:�ICE concurred with this
           recommendation. According to ICE, it continuously reviews its WSE strategies by
           collecting statistics. Since receipt of our report, ICE has taken the following steps
           to enhance the process it uses to evaluate the effectiveness of the administrative
           inspection process and to modify the process based on its evaluation. The WSE
           Unit participated in the ICE Innovation Forum, “Achieving the Mission and
           Driving Innovation through Public-Private Partnerships,” conducted on July 16,
           2013. ICE hosted approximately 120 industry representatives to work with ICE
           subject matter experts to address specific current challenges, including effective
           methods of evaluating the current WSE strategy. With the benefit of these
           discussions, ICE will attempt to create a method to evaluate the effectiveness of
           its WSE strategy’s administrative fine policy. ICE will begin developing an
           evaluation methodology by the end of FY 2014.




www.oig.dhs.gov                                 14                                         OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                            �
           OIG�Analysis:�We consider this recommendation resolved because steps are
           being taken to implement it. However, it will remain open until ICE provides
           evidence that it has developed and implemented the evaluation methodology by
           September 30, 2014.

           Management�Response�to�Recommendation�#3:�ICE concurred with this
           recommendation. ICE will review the statistics entered as part of the
           administrative inspection process for timeliness and accuracy and forward
           deficient cases to the field to be corrected or updated. In addition, ICE will create
           an administrative inspection statistics webinar, which will be provided to
           employees assigned to WSE groups. The webinar will reiterate the proper
           method to report information about WSE administrative inspections and the
           proper reconciliation methods for deficiencies. The expected completion date is
           December 31, 2014. �

           OIG�Analysis:�We consider this recommendation resolved because steps are
           being taken to implement it. However, it will remain open until ICE provides
           evidence that it conducted a review to ensure the timeliness and accuracy of
           WSE data and provides evidence that it conducted the webinar. �




www.oig.dhs.gov                                 15                                         OIG-14-33

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                           �
   Appendix�A�
   Objectives,�Scope,�and�Methodology�
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Our objective was to determine whether ICE is meeting the requirements of IRCA
   through the administrative inspection process for its WSE strategy. We interviewed
   officials from various ICE headquarters offices, including the Office of the Director,
   Office of the Principal Legal Advisor, and HSI. We also interviewed officials from U.S.
   Citizenship and Immigration Services’ Verification Division. We conducted site visits and
   interviews with BFC and ICE field office officials in Chicago, Denver, Los Angeles, Miami,
   and New Orleans.

   We reviewed prior audit and evaluation reports, relevant laws, regulations, strategic
   plans, standard operating procedures, policies, and ICE’s organizational charts. We
   reviewed memorandums of agreement, congressional testimony, media reports,
   outreach documents, legal analyses, and talking points.

   In our analysis, we used data from the WSE Consolidated Monthly I-9 Inspection
   Tracking Sheets that recorded administrative inspections from January 2009 to June
   2012. We identified discrepancies in the data because field offices did not consistently
   update the reports, and some offices deleted data that others retained. In addition, we
   identified discrepancies on BFC’s fine collection report from FYs 2011 through 2012
   because the original fine amounts were not adjusted in FFMS to reflect renegotiated
   fines. However, these were the only reports HSI had available that consolidated all
   current information on the status of administrative inspections.

   We analyzed the results of 692 administrative inspections conducted by five field offices
   from January 2009 to August 2012 to determine the percentage of compliance,
   warnings, and fines issued to employers. Of the 692 administrative inspections, we
   determined the number of administrative inspections results from the following field
   offices: Chicago (152), Denver (79), Los Angeles (147), Miami (194), and New Orleans
   (120).

   For our sample selection of 149 administrative inspections files, we selected the
   following from each field office: Chicago (35), Denver (30), Los Angeles (29), Miami (26),



www.oig.dhs.gov                                16                                        OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                             �
   and New Orleans (29). While onsite, we reviewed the sample of administrative
   inspection files to determine if HSI personnel conducted administrative inspections in
   accordance with ICE policies. We also identified an additional sample of administrative
   inspections files to review the accuracy of WSE reporting. For our sample selection, we
   selected a total of 56 files from the following field offices: Chicago (4), Denver (15), Los
   Angeles (14), Miami (8), and New Orleans (15). In addition, we visited BFC to review
   financial information, reports, and applicable operating procedures.

   We conducted this performance audit between March 2012 and May 2013 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective.
    �




www.oig.dhs.gov                                 17                                         OIG-14-33

                                 OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix�B�
   Management�Comments�to�the�Draft�Report�
                                                                                  Office of the   Dirt~CIQr


                                                                                  li.S. Departm ent of Homela nd Sc:cuity
                                                                                  500 12" Street, Sl'
                                                                                  Washington, DC 20536


                                                                                  U.S. Immigration
                                                                                  and Customs
                                                                                  Enforcement


                                                      December 20, 2013


              MEMORANDUM FOR:                Mark Bell
                                             Acting Assistant Inspector General for Audits

                                          ·-~n~;p~
              FROM:
                                       o·.
                                        JJadha C. Sekar
                                           ~cting Executive Associate Director, Management and
                                           Administration

              SUBJECT:                       Management Response to 010 Draft Report titled, " U.S.
                                             Immigration and Customs Enforcement's Worksite Enforcement
                                             Administrative Inspection Process."

              U.S. Immigration and Customs Enforcement (ICE) appreciates the opportunity to comment on
              the subject draft report. Attached is our response to each of the tluee reconunendations. We
              have reviewed and concur with recommendations 2 and 3. lCE will continue working to resolve
              each of these identified weaknesses.

              ICE does not concur with recommendation 1, as the agency provides effective oversight of the
              administrative inspection process. This recommendation relates lo the report's assumption that
              variances in the inspection outcomes among individual field offices arc valid criteria to
              determine if the agency consistently applies the inspection process. Variances in the percentages
              of investigations that result in a particular enforcement outcome, such as the issuance of a
              warning letter versus a notice of intent to fine, among field offices are the result of many factors.
              ICE Homeland Security Investigations (ICE) has long been sensitive to the need for consistent
              application of its administrative inspections and has robust measures in place to promote
              consistency.

              Should you have questions or concerns. please contact Michael Moy, Audit Portfolio Manager,
              at (202) 732-6263, or by e-mail at Michaei.Moy@dhs.gov.

              Attachment




                                                                                  www.ice.gov




www.oig.dhs.gov                                                18                                                           OIG-14-33

                                    OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                                                                                                          Attachment

                                     ICE Response t o OIG Draft Report Recommendations:

                    "U.S. Immigration and Customs Enforcement's Wurk.~ite Enforcement Administrative
                                                   Inspection Process"
                                           (OI G Project No. 12-012-AUD-JCEJ

              Recommendation #1: Enfo rc e its oversight p rocedures to ensure consistent npplicntion of
              the worksite enforcement strategy administrative inspection process nationwide.

              Response: ICC does not concur with this recommendation, as the agency provides effective
              oversight of the admmistrative mspection process. This recommendation relates to the report's
              assumption that variances in the inspection outcomes (warning notices vs. fines) among
              indi vidual field offices are valid criteria to determine if the agency consistently applies the
              inspection process. We respectfully disagree. Variances m the percentages of investigations that
              result in a particular enforcement outcome, such as the issuance of a warning lener versus a
              nutil:t: or intent to fine, among field offices are the result of many factors. These factors include
              local mission priorities, resources and local socio-economic characteristics, rather than the lack
              of consistent processes or oversight. The number and results of inspections fluctuate among
              field offices; however, the resnun:t:s (tht: indi~ iduals assigned at each field station) necessary to
              issue and support a fme remain constant. This accounts for the variance among tield offices in
              the percentages of cases concluded by fines, warnings and findings of compliance.
              Furthermore, as we discuss in detail in our response to Recommendation 2, we conducted re-
              inspections or companies that had been issued a fine or a waming to determine which disposition
              was more effective in fostering compliance. We found no significant diflerence in post-
              inspection compliance whether we issued a fi ne o r a warning. Given this, contrasting the
              variance between fines or warnings is not a valid criterion to describe a variance in the t:ffeclivt:
              application of the inspection process.
                  ICE Homeland Security Investigations (ICE HSI) has long been sensitive to the need fo r
                  consistent application of its administrative inspections and has robust measures in place to
                  promote con~istency. Tht: process by which Employment Eligibility Verification Form l-9s are
                  received, inspected and adjudicated is consistently applied throughout ICE HSI. The process
                  results in a finding of compliance, an adjusted compliance, a warning, or a fine. ICE HSI
                  Headquarters Worksite Enfo rcement (WSE) Unit provi de~ oversight to en~ure consistent
                  application of this process hy the field offices. It does this by providing or facilitating: a fiscnl
                  year inspection implementation plan; uniform notice template letters; oversight of the de-
                  confliction process; a central repository of policy, resources, and gu idance to be ut il ized hy the
                  field offices, which is updated by the WSE Cnit; periodic refresher wcbinars to reiterate training
                  points and polices; conference calls with first line supervisors to discuss current issues; and real-
                  time responses to questions rrom the lit!ld o ffict:s. The WSE Unit authors the fiscal year
                  inspection implementation plan, wh ich contai ns detailed guidance. The WS E Unit monitors and
                  tracks case dispositions, ensuring cases are submitted to the Department of r .ahor for de-
                  confi iction and ensuring that the Notices of Inspections are served and accurately captured in
                  TECS-11.
                  Accordingly, we request this recommendation be closed.



                                                                                                                          1




www.oig.dhs.gov                                                   19                                                          OIG-14-33

                                   OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                                                                                       Attachment

                                    ICE Response to OIG Draft Report Recommendations:

                   "l!.S. Immigration and Customs Enforcement's Worksite Enforcement Administrative
                                                   Inspection Process"
                                           [OIG Project No. 12-012-A UO-TCF.]

              Recommendation #2: Develop a process to evaluate the effectiveness of the administrative
              inspection process and modify the process based on the evaluation.

              Response: ICE concurs with this recommendation. ICE continuously reviews its worksite
              enforcement strategies through the collection o f statistic~. Sinl:e receipt of the report, ICE HSI
              has taken the following steps to enhance the process we usc to evaluate the effectiveness of the
              administrative inspection process and modify the process based on the evaluation.

                     •   ICE reviewed the recidivism rate of apprnximalely 500 husine~ses that were re-inspected
                         in January 2012 to determine which enforcement actions resulted in greater future
                         compliance with the employment verification system; the goal of the current strategy.
                         These businesses were all subject to prior findin~s of nun-compliance resulting in either
                         the issuance of a Warning Notice or an Administrative Fine. Over SO% of the businesses
                         were found to be compliant, and there was no significant difference in the future
                         compliance rate berween a Warning Notice ami Fine when looking at the recidivism rate.

                     •   To explore options on the most cost-etlicient and effective methodology to evaluate the
                         effectiveness of the administrative inspection process, ICE WSE participated in the ICE
                         Innovation Fomm conducted July 16, 2013. This event was entitled Achieving the
                         ,\,fission and Driving Innovation 1hrough Public-Private Partnerships. ICE hosted
                         approximately 120 industry representatives to work with subject maner experts at ICE to
                         address specific current challenges; including effective methods to evaluate the current
                          worksite enforcement strategy. With the benefit of thesc discussions, ICE will attempt to
                          create a method for evaluation of the effectiveness of the ICE worksite enforcement
                         strategy relating to the administrative fine policy.

                     •   ICE will begin development of an evaluation methodology by the end of Fiscal Year
                         2014.

                  We request this recommendation be considered resolved and open pending completion of our
                  planned corrective action.

                  Recommendation #3: Direct liomeland Security Investigations field offices to provide
                  consistent, accurate, and timely reporting and reconciliation of information on worksite
                  enforcement strategy administrati ve inspections.

                  Response: ICE concurs with this recommendation. To ensure greater consistency and accuracy
                  in reporting of information, ICE HSI will review statistics entered as part of the administrative
                  inspection process for timeliness and accuracy, and forward deficient cases to the field to be
                  corrected or updated. ICE will further create an administrative inspection statistics webinar rhat
                  will be provided to employees assigned to ESE groups during fY 2014 to reiterate the proper

                                                                                                                    2




www.oig.dhs.gov                                                 20                                                      OIG-14-33

                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




                                                                                                Attachment

                                ICE Response to 01(; Draft Report Recommendations:

                  "IJ.S. Immigration and Customs Enforcement's Worksite Enforcement Administrative
                                                 Inspection Process"
                                          (OIG Project No. 12-012-AUD-ICEJ

              method to report information on worksite enforcement administrative inspections and the proper
              reconciliation methods for deficiencies. Expected completion date is December 31, 2014.

              Wc request this recommendation be considered resolved and open pending completion of our
              planned corrective action.




                                                                                                               3




www.oig.dhs.gov                                            21                                                      OIG-14-33

                                                     OFFICE OF INSPECTOR GENERAL
                                                                 Department of Homeland Security



   Appendix�C�
   Form�I-9�Employment�Eligibility�Verification�

                                                                                                                                       OMB No. 161>0047; E.'<pires 08131112
      Oep~rtn1en1      ofllomeland Scwrlly                                                                                                Form 1-9, Employment
      U.S. Citizenship and lnunigration Services                                                                                          Eligibility Verification
      Rrod ln>l ructlons carefully btfor< rompltllng litis form. Tbelnslrucllons musl be available durin g complellon of Ibis form.

      ANT!-OI SCRI~HNATION NOTICE: It is illtgal to dl~criminat.e against work-authoriztd individuals. E mployers CA-NNOT
      sp<'cify which document(s) t hey will accept from an employee. T he refus:ol to hire an individual because the documents have a
      future expiration date may ubo constitute illegal discrimimotion.
      Section 1. Employee Information a nd Verification (l'o be completed and signed by employee at the time employment begilrs.)
      Print Name: Last                                                   Firsc                                        Middle Initial Maiden Name


      Ada'esi (Stre~t Non.e anJ N11mhu)                                                                          Apt. H                Date ofBinh {n>DmMklyly•ar)


      City                                                       Slate                                          Zip Code               Social Security ~


                                                                                              I attest. und<r p<nahy of perjury. that I am (check oneof the following):
      I :un aware that federal low provides for
      imprisonment and/or fines for false statements or                                       0     A citizen of the United States

      use of f:1lse documents in connection with the                                          D     A noncitizen national of the United Slates (sec instructions)
      completion of this form.                                                                0     A lawful pennancnl rcsidcnl (Alien II)
                                                                                              0     An alien authorized to woot (Alien Wor Aclnission If) - - - - - - -
                                                                                                    until (expiration dale. if applicable • ntOntlllda~fwor)_
      Emplo)'ce's Signature                                                                    Dote (•>DIItMlrl).f)'<ar)

      Prtparer and/or Translator Ctrtitiration (To be completed and »s,~edlfS«tlon J lspwpand byafWrson otl~ertiJOJ• tiJf! empiO)'t!t>.) I attest.                        utlilkr
      pe11/JJI)' ofpefjlll)'. thai I hm·e assiJted in tl.e compktion ofthisfom• a11d tlllJito tlw best ofnry loW~Wkdge tlw il!formalion is true and correct.
                   Preparer'Sfl'ranslatoo's Signalurc                                                 Print Name




      Section 2. E mploytr Review and Verification (To be completed and signed by employer. £>:amine one document from List A OR
      examine one documem from List 8 and one from List C. as listed on the reverse ofthis form, and record the title, number. and
      expiration date, ifanJ\ ofthe document(s).)
                               List A                             OR                        List B                           AND                               List C
      Document title:

      Issuing authority:
      Document II;

             ExpiraUOII Date (ifmt)j.'
      Document N:


      C ERTIFICATION: I "llesl, undt r pen.,lly of perj ury, Ihall have exam lnt d Ihe tlocumenl(s) prt!ifnled by Ihe obovl'>-named employee, I hal
      lhe abov6-llsled dorumenl(s) appror to be genuine and to relale to lhe employee named, lhal lhe employee bc!Pn employmenl on
      (m outlrltln)f)Y!(tr)                  a nd that to tht b<st or my kn0\\1edgc the tmployee ls authorlud to work In the nlled Sta lt.. (Sta te
      enoploynoenl agcncJ•• may omllthe datelht enoployee be~ n tmploymcm.)
      Sisnaturc of Employ<r or Authorized Rcpr...,.tat ivc




      Section J . U datin and Rtverific:otion
      A. N<W Name (ljoppllcable)                                                                                       B. Date of Rehire (•>DIItltlclo:r?"ar) (Ifapplictlbk)

      C. If employee's prcvioos grant of work authorization has expired. provide tloe information below for the document tloat establishes aurent cmplo~ment outhorizatillll.
                    Document Title:                                                     Documml N:
      I l llt'st, under JKualty or perjury, Utat to Ute best 0( Ill)' kltOlt·lttJ.ge, Ud s aup&oytt ISIUUtorlza:ILO"'ork In the United Slatts.a.nd lr the employee presented
      document(s), Che docume11t(s) I ha~-eexamfned a~a.r to be genu ine and to relate to the lndlv1du•l.
      S•gnature o Employer or Authonted RepreStntat 1ve


                                                                                                                                                   f orm 1-9 (Rev. OS/07J(jl}) Y Pase 4




www.oig.dhs.gov                                                                                   22                                                                                      OIG-14-33

                                       OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security




                                            LISTS OF ACCEPTABLE DOCUME~TS
                                                   All documents must be unexpired
                     LIST A                                         LIST B                                    LISTC
          Documents that Establish Both                   Documents that Establish                    Documents that Establish
            Identity and Emplo)ntent                            Identity                              Employntent Authorization
                  Authorization         OR

     1. U.S. Passport or U.S. Passport Card       1. D river's license or ID card issued by   1. Social Security Accmmt ):umber
                                                     H Smte or outlying possession o f the       card other than one that specifics
                                                     U nited States provided it contains a       on the face that the issuance of the
                                                     photograph or information such as           card does not authorize
     2. Penn anent Resident Card or Allen            name. date of b irth, gender. height,       employment in the United States
        RegiStration Receipt Card (Form              eye color, and address
        1-551)
                                                                                              2. Certification of B irth Abroad
                                                  2. ID card issueu by feueral, slate or         Issued by the Department of State
     3. Foreign passport that conmins a              local government agencies or                (Form FS-545)
        temporary 1-551 stamp or temporary           entities, provided it contains a
        I-551 printed notation on a machine-         photograph or information such as
        readable immigrant visa                      nam e, date of b irth, gender, height,
                                                     eye color, and address                   3. Certification o f Report of Birtl1
                                                                                                 issued by the Department of State
                                                                                                 (Form DS-1350)
     4. Employment .A.uthorization Document       3. School ill card with a photograph
        that contains a photograph (Form
        I-766)
                                                  4. Voter's registration card                4. Original or cerlllied copy or b irth
                                                                                                 certificate issued by a State,
     5. In the case of a nonunm igrant alien      5. U.S. Military card or draft record          county, municipal authority, or
        authorized to work for a specific                                                        territory of the United States
        employer incident to status, a foreign                                                   bearing an official seal
                                                  6. Military dependent's ID card
        passport with Form I-94 or Form
        I-94A bearing d1e same name. as the
                                                  7 . US Coast Guard Merchant Mariner
        passport and containing an                                                            5. ):ative American tribal document
                                                      Card
        endorsement of the alien's
        nonin11n igmnt stotus, as long as the
                                                  8. Native American tribal document
        period of endorsement has not yet
        expired and the proposed                                                              6. U.S. CitizmiD Card (Form I-197)
                                                  9. Driver's license Issued by a Canadian
        employm ent is not in conflict with
                                                     government authority
        any restriction s or limitations
        identified on the form
                                                       For· person~ under age 18 who          7. Identification Card for Use of
                                                           are unable to present a               Resident Citizen in the United
                                                           docume nt listed a bove:              States (Fom1 I-179)
     6. .Passport from the Federated States of
        Micronesia (FS.M) or the Republic of
        the Marshall l slands (.RMJ.) with        10. School record or report card            8. Employmentauthorizat.ion
        Form I-94 or Form I-94A indicating                                                       document issued by the
        nonimmigrant admission under the          11. C linic, doctor, or hospital record        DepHrtment of Homeland Security
        Compact of Free Association
        Between the United States and the
        FSMorRMI
                                                  12. Day-care or nursery school record



       Illustrations ofma.ny of these documents a ppear i.n Part 8 ofthe Handbook for· Employers (M-274)
                                                                                                            Form 1·9 (Rev. 08/0i/09) Y Page 5




www.oig.dhs.gov                                                         23                                                                OIG-14-33

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                         �
   Appendix�D��
   Major�Contributors�to�This�Report��
   Linda Howard, Director
   Modupe Akinsika, Audit Manager
   Duane Albert, Auditor-In-Charge
   Nancy Pergolizzi, Auditor
   Elizabeth Kelleher, Program Analyst
   Andre Marseille, Program Analyst
   Shamika Morris, Independent Referencer
   Kelly Herberger, Communications Analyst




www.oig.dhs.gov                              24                OIG-14-33

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                            �
   Appendix�E��
   Report�Distribution��
                      �
   Department�of�Homeland�Security���

   Secretary
   Deputy Secretary
   Chief of Staff �
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer
   ICE Audit Liaison

   Office�of�Management�and�Budget��

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  25                        OIG-14-33

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
